Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   MEDICARE PAYMENTS
    MADE ON BEHALF OF
  DECEASED BENEFICIARIES
         IN 2011




                    Daniel R. Levinson
                     Inspector General

                      October 2013
                     OEI-04-12-00130
EXECUTIVE SUMMARY: MEDICARE PAYMENTS MADE ON BEHALF OF
DECEASED BENEFICIARIES IN 2011
OEI-04-12-00130

WHY WE DID THIS STUDY

Prior Office of Inspector General (OIG) studies and audit reports have identified
Medicare payments made on behalf of deceased beneficiaries. The Centers for Medicare
& Medicaid Services (CMS) implemented safeguards to address this vulnerability.
Health care fraud schemes have involved providers or suppliers submitting fraudulent
claims to Medicare, including claims for deceased beneficiaries.

HOW WE DID THIS STUDY

We identified Medicare beneficiaries who, according to the Social Security
Administration, died from 2009 to 2011. We then identified Medicare Part A and B
claims and Part C and D payments from 2011 associated with these deceased
beneficiaries. We also analyzed paid and unpaid Part B claims with service dates after
beneficiaries’ deaths to identify providers and suppliers associated with high numbers of
these claims.

WHAT WE FOUND

CMS has safeguards to prevent and recover Medicare payments made on behalf of
deceased beneficiaries; however, it inappropriately paid $23 million (less than one-tenth
of a percent of total Medicare expenditures) in 2011 after beneficiaries’ deaths. Part C
accounted for 86 percent of these improper payments. Additionally, 11 percent of these
improper payments resulted from missing or incorrect dates of death. Further, we
identified 251 providers and suppliers that had high numbers of paid and/or unpaid Part B
claims with service dates after beneficiaries’ deaths.

WHAT WE RECOMMEND

We recommend that CMS (1) improve existing safeguards to prevent future improper
Medicare payments after beneficiaries’ deaths, (2) take appropriate action on improper
Medicare payments made on behalf of deceased beneficiaries and correct inaccurate dates
of death, (3) monitor both paid and unpaid Part B claims with service dates after
beneficiaries’ deaths, and (4) take appropriate action on providers and suppliers that had
high numbers of paid and/or unpaid Part B claims with service dates after beneficiaries’
deaths. CMS concurred with all four recommendations. 
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................8 

Findings......................................................................................................13 

           CMS has safeguards to prevent and recover Medicare payments 

           made on behalf of deceased beneficiaries; however, it 

           inappropriately paid $23 million in 2011 after beneficiaries’

           deaths .............................................................................................13 

           Eleven percent of improper Medicare payments made on behalf 

           of deceased beneficiaries resulted from missing or incorrect dates 

           of death...........................................................................................16 

           In 2011, 251 providers and suppliers had high numbers of                            

           paid and/or unpaid Part B claims with service dates after 

           Medicare beneficiaries’ deaths .......................................................18 

Conclusion and Recommendations ............................................................20 

           Agency Comments and Office of Inspector General Response.....22 

Appendixes ................................................................................................24 

           A: Medicare Payments Made on Behalf of Deceased Beneficiaries 

           by Year of Beneficiary Death .........................................................24 

           B: Procedure Codes and Modifiers on Medicare Part B Claims

           With Service Dates After Beneficiaries’ Deaths ............................26 

           C: Agency Comments ...................................................................30 

Acknowledgments......................................................................................33 

                  OBJECTIVES
                  1.	 To identify and describe Medicare payments made on behalf of
                      deceased beneficiaries.
                  2.	 To determine the accuracy of the Centers for Medicare & Medicaid
                      Services’ (CMS) information on beneficiaries’ dates of death.
                  3.	 To identify providers and suppliers with paid and/or unpaid Part B
                      claims with service dates after beneficiaries’ deaths.

                  BACKGROUND
                  Medicare should not pay for any expenses incurred for items or services
                  that are not reasonable and necessary for the diagnosis or treatment of
                  illness or injury or to improve the functioning of a malformed body
                  member.1 Medically necessary services cannot occur after a beneficiary’s
                  death. Therefore, payments for services provided after a beneficiary’s
                  death are inappropriate.
                  Prior Office of Inspector General (OIG) studies and audit reports have
                  identified Medicare payments for claims with service dates after
                  beneficiaries’ deaths. For example, OIG found that Medicare paid
                  $20.6 million in 1997 for Parts A and B services that started after
                  beneficiaries’ deaths.2 Additionally, health care fraud schemes have
                  involved providers or suppliers submitting fraudulent claims to Medicare,
                  including claims for deceased beneficiaries. For example, an individual
                  was indicted on charges of health care fraud in 2008 because his durable
                  medical equipment company submitted approximately $2.1 million in
                  fraudulent Medicare claims for services that were not rendered, including
                  10 claims for deceased beneficiaries.3 This individual fled to Cuba in
                  2008 and was arrested as he attempted to enter the United States in
                  June 2012.
                  The Medicare Program
                  CMS administers Medicare, a Federal health insurance program for the
                  elderly and disabled.4 In 2011, total Medicare benefit outlays were




                  1
                    Social Security Act § 1862(a)(1)(A), 42 U.S.C. § 1395y(a)(1)(A).
                  2
                    Department of Health and Human Services (HHS) OIG, Medicare Payments for
                  Services After Date of Death (OEI-03-99-00200), March 2000.
                  3
                    HHS OIG, Captured Fugitives: CAPTURED: Miguel Cabello, June 2012. Accessed at
                  https://oig.hhs.gov/fraud/fugitives/captured_profiles.asp on March 13, 2013.
                  4
                    CMS, Medicare Program – General Information: Overview, December 2005.

Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)           1
                    $541.3 billion.5
                    Medicare has two components: hospital insurance, otherwise known as
                    Part A, and supplementary medical insurance, which consists of Parts B
                    and D.6 Medicare also has Part C (i.e., Medicare Advantage), which
                    serves as an alternative to the traditional fee-for-service approach of Parts
                    A and B.7 Individuals who are eligible for Part A may enroll in Part B or
                    join Medicare Advantage. Additionally, individuals who are enrolled in
                    Part A, Part B, or Medicare Advantage are eligible for prescription drug
                    coverage under Part D. Table 1 provides a description and expenditures in
                    2011 for each Part of Medicare.
                    Table 1: Description and Benefit Outlays by Part of Medicare, 2011
                                                                                               Percentage of
   Part of                                                                  2011 Medicare         Total 2011
                                                           Description
   Medicare                                                                  Expenditures          Medicare
                                                                                               Expenditures


                            Helps pay for hospital, home health, skilled
   Part A                                                                    $188.3 billion             35%
                                     nursing facility, and hospice care



                    Helps pay for physician outpatient hospital, home
                           health, and other health services, including
   Part B                                                                    $162.6 billion             30%
                    durable medical equipment, prosthetics, orthotics,
                                             and supplies (DMEPOS)


                         Offers beneficiaries the option to enroll in and
                        receive care from private Medicare Advantage
   Part C                                                                    $123.7 billion             23%
                        plans and certain other health insurance plans
                                            that contract with Medicare


                       Provides subsidized access to drug insurance
                    coverage on a voluntary basis for all beneficiaries
   Part D                                                                      $66.7 billion            12%
                         and premium and cost-sharing subsidies for
                                               low-income enrollees

       Total                                                                 $541.3 billion           100%
   Source: See footnote 5 below.

                    Part A services are furnished mainly by organizational providers (e.g.,
                    hospitals, home health agencies, skilled nursing facilities, and hospices).

                    5
                      Board of Trustees of the Federal Hospital Insurance and Federal Supplementary
                    Medical Insurance Trust Funds, 2012 Annual Report of the Board of Trustees of the
                    Federal Hospital Insurance and Federal Supplementary Medical Insurance Trust Funds,
                    April 23, 2012.
                    6
                      The Medicare Prescription Drug, Improvement, and Modernization Act of 2003
                    (MMA), P.L. 108-173, Title I, established the Part D prescription drug benefit.
                    7
                      The Balanced Budget Act of 1997, P.L. 105-33, § 4001, established the
                    Medicare+Choice program, also known as Medicare Part C. Title II of the MMA revised
                    Part C and established the Medicare Advantage program in place of Medicare+Choice.

Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)                      2
                  Individual providers (i.e., physicians, nonphysician practitioners, and other
                  qualified professional personnel) furnish most Part B services to Medicare
                  beneficiaries. Other Part B services, such as home health services and
                  outpatient therapy, may be furnished by or under the supervision of an
                  organizational provider. Suppliers generally provide DMEPOS items to
                  beneficiaries under Part B.
                  For certain Part A and B services and items, individual providers must
                  order, refer, or certify the service or item for the beneficiary. For example,
                  individual providers must order certain nonphysician Part B items or
                  services (e.g., DMEPOS, clinical laboratory services) for beneficiaries.
                  Additionally, individual providers certify home health services for
                  beneficiaries under Part A.8 Ordering/referring providers are listed on
                  these nonphysician and home health claims even though suppliers or other
                  providers are the entities that submit the claims to Medicare for payment.
                  For Part C, beneficiaries may choose to enroll in Medicare Advantage
                  plans (e.g., health maintenance organizations, preferred provider
                  organizations) offered by private insurance companies (i.e., Medicare
                  Advantage organizations). Each Medicare Advantage organization can
                  offer more than one plan to its beneficiaries. Similarly, beneficiaries may
                  choose to enroll in prescription drug plans to receive drug benefits
                  subsidized by Part D. Private insurance companies (i.e., prescription drug
                  plan sponsors) provide drug coverage to beneficiaries who choose to
                  enroll. Each sponsor typically offers more than one prescription drug plan
                  to its beneficiaries.
                  Medicare Payment Processing
                  Parts A and B. CMS relies on contractors to process and pay Parts A and
                  B claims. Claims processing contractors enter Medicare claims submitted
                  by providers and suppliers into their processing systems, perform “edits”
                  (system processes) on the claims, and calculate payment amounts. Edits
                  validate claims data by detecting errors or potential errors and verifying
                  that certain data are consistent and appropriate.9 Edits are performed
                  either before or after payment is made, depending on the type of edit.



                  8
                    CMS, Medicare Enrollment Guidelines for Ordering/Referring Providers (Medicare
                  Learning Network), September 2012. Accessed at http://www.cms.gov/Outreach-and-
                  Education/Medicare-Learning-Network-
                  MLN/MLNProducts/downloads/MedEnroll_OrderReferProv_factSheet_ICN906223.pdf
                  on February 8, 2013.
                  9
                    CMS, Medicare Administrative Contractor Workload Implementation Handbook
                  (Legacy-to-MAC), February 2012. Accessed at http://www.cms.gov/Medicare/Medicare-
                  Contracting/MedicareContractingReform/Downloads/Handbooks/Legacy2MACImp.pdf
                  on March 6, 2013.

Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)             3
                  The claims processing contractor then sends the claim to the Common
                  Working File, where a series of edits are performed for consistency,
                  entitlement, and duplication of services.10 Once the Common Working
                  File completes its edits, the system authorizes the claims processing
                  contractor to pay the claim, reject the claim, or hold the claim until more
                  information is obtained.
                  Parts C and D. At the beginning of each month, CMS makes payments on
                  behalf of beneficiaries to Medicare Advantage organizations and
                  prescription drug plan sponsors.11, 12 Payment amounts may differ for
                  each enrolled beneficiary on the basis of demographic and health status
                  information.13 CMS calculates payment amounts using the most current
                  information available.
                  If CMS receives demographic or health status information that would
                  increase or decrease previous monthly Part C and/or D payments, it makes
                  retroactive adjustments to correct the payment amount.14 For deceased
                  beneficiaries, CMS corrects the payment amount for the months in which
                  the individuals had, before their deaths, been enrolled in the Medicare
                  Advantage plan or prescription drug plan. The Medicare Advantage and
                  Prescription Drug (MARx) system maintains information as to when
                  beneficiaries enroll in or disenroll from a Medicare Advantage plan or a
                  prescription drug plan.
                  Date-of-Death Information
                  To identify Medicare payments made on behalf of deceased beneficiaries,
                  CMS relies on information in its Enrollment Database. The Social
                  Security Administration (SSA) and the Railroad Retirement Board (RRB)
                  are CMS’s primary sources of information about deceased




                  10
                     The Common Working File contains all Medicare beneficiary information and Part A,

                  Part B, and DMEPOS claims transactions. CMS, Medicare Claims Processing Manual, 

                  Pub. 100-04, ch. 27, § 10. 

                  11
                     For Part C, 42 CFR § 422.304. For Part D, 42 CFR § 423.315.

                  12
                     For Part D, most beneficiaries are responsible for certain costs, which may include a 

                  monthly premium, an annual deductible, and coinsurance or copayments. However, 

                  certain low-income beneficiaries are eligible to receive a subsidy that pays some or all of 

                  these costs. 42 CFR § 423.780 and 42 CFR § 423.782. 

                  13
                     For Part C, 42 CFR § 422.308(c). For Part D, 42 CFR § 423.315. 

                  14
                     For Part C, 42 CFR §§ 422.308 and 422.310(f). CMS adjusts the payments monthly, 

                  as necessary, on both a prospective and retrospective basis to the beginning of the year. 

                  For Part D, 42 CFR §§ 423.315 and 423.343. After the end of each year, CMS reconciles 

                  levels of enrollment, risk factors, levels of incurred allowable drug costs, reinsurance 

                  amounts, and low-income subsidies to determine reconciliation payment adjustments. 


Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)                        4
                  beneficiaries.15, 16 SSA and RRB learn of beneficiaries’ deaths in a
                  number of ways, including reports from relatives, funeral homes, and the
                  U.S. Postal Service. Death notifications are processed by SSA and RRB
                  as follows:
                  	 SSA processes death notifications through its Death Alert, Control, and
                     Update System, which matches against the Master Beneficiary and
                     Supplemental Security Records.17 SSA records the resulting death
                     information in its Numerical Identification System (the Numident). 18
                     SSA then uses information from the Numident to create a national
                     record of death information called the Death Master File.19
                  	 RRB processes death notifications through its Application Express
                     System, which then populates the Medicare Information Recorded,
                     Transmitted, Edited and Logged (MIRTEL) System.20
                  CMS receives death information daily from SSA’s Master Beneficiary
                  Record and RRB’s MIRTEL System. When SSA or RRB has a specific
                  date of death, CMS considers the date of death entered into the Enrollment
                  Database to be verified for that Medicare beneficiary. When SSA or RRB
                  does not have a specific day of death, only a month of death, the last day
                  of the month of death is entered into CMS’s Enrollment Database. CMS
                  considers this date unverified because the database contains a default date
                  of death. Unverified death information in the Enrollment Database is
                  updated as CMS, SSA, and RRB receive more specific (i.e., verified)
                  information on beneficiaries’ dates of death.
                  The Enrollment Database is the authoritative source of Medicare
                  beneficiary information and contains personal identifiers (e.g., name,
                  Social Security number), demographic data (e.g., date of birth, date of
                  death), and entitlement information (e.g., benefit start date).21 The
                  Enrollment Database is used to update beneficiary information in CMS

                  15
                     RRB administers the retirement/survivor and unemployment/sickness insurance benefit 

                  programs for railroad workers and their families under the Railroad Retirement Act and 

                  the Railroad Unemployment Insurance Act.

                  16
                     Other sources for date-of-death information are institutional providers. 

                  17
                     SSA, Programs Operations Manual System, GN 02602.060 (May 13, 2011). The 

                  Master Beneficiary Record is an electronic record of all Title II (of the Social Security 

                  Act) beneficiaries. The Supplemental Security Record is an electronic record of all Title 

                  XVI (of the Social Security Act) beneficiaries. 

                  18
                     Ibid. The Numident contains personally identifiable information for each individual

                  issued a Social Security number. 

                  19
                     SSA, Programs Operations Manual System, GN 02602.060.B.1 (May 13, 2011). 

                  20
                     RRB OIG, Audit of the Application Express (APPLE) System’s Date of Death 

                  Reliability (Report No. 12-06), March 2012. 

                  21
                     CMS, Data Directory. Accessed at http://aspe.hhs.gov/datacncl/datadir/cms.htm on 

                  February 3, 2012.


Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)                      5
                  systems, including the Common Working File and the MARx system.
                  Once beneficiaries’ dates of death are entered in the Common Working
                  File, any claims submitted with service dates after beneficiaries’ deaths are
                  denied. Similarly, once beneficiaries’ dates of death are entered in the
                  MARx system, the system disenrolls the deceased beneficiary from the
                  Medicare Advantage plan or prescription drug plan at the end of the month
                  in which the death occurred.
                  Postpayment Review To Recover Improper Payments
                  Beneficiary information may not always be accurate as a result of delays
                  between the date a beneficiary dies and the date SSA learns of that death.
                  Therefore, CMS may make improper payments after beneficiaries’ deaths;
                  however, it retroactively recovers these payments once death information
                  is received. CMS identifies these improper payments differently
                  depending on the Part(s) of Medicare in which the beneficiary is enrolled.
                  Parts A and B. To identify and prevent payment for Part A and B services
                  after beneficiaries’ dates of death, CMS implemented an “informational
                  unsolicited response” process in April 2011.22 This process reviews all
                  Part A and B claims approved for payment in the claims history and
                  identifies claims with service dates up to 3 years after the beneficiary’s
                  date of death.23
                  For example, if a beneficiary died on April 30, 2011, and the Common
                  Working File system received notification of this beneficiary’s death on
                  May 16, 2012, the system will:
                  	 identify paid claims with service dates of April 30, 2011, to May 16,
                     2012,
                  	 prompt an “informational unsolicited response”—i.e., an automated
                     notification—to claims processing contractors for these identified paid
                     claims with service dates after a beneficiary’s date of death, and
                  	 prevent any future improper payments for claims with service dates up
                     to 3 years after the beneficiary’s date of death.
                  Claims processing contractors receive a report of identified claims for
                  deceased beneficiaries on which they are required to take action and



                  22
                     CMS, Change Request 7123, Transmittal 804, Pub. 100-020 One-Time Notification,
                  November 2010. Accessed at
                  https://www.cms.gov/transmittals/downloads/R804OTN.pdf on February 4, 2013. The
                  automatic adjustment process of the “informational unsolicited response” retroactively
                  adjusts certain paid claims when subsequent claims or other subsequent actions are the
                  first indicator that payment was inappropriate.
                  23
                     Ibid.

Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)                       6
                  perform additional review, if necessary, to determine whether payment
                  was inappropriate.24
                  Parts C and D. When a beneficiary enrolled in a Medicare Advantage
                  plan or prescription drug plan dies, the last payment should be for the
                  month in which the beneficiary died. CMS systems automatically
                  disenroll deceased beneficiaries to prevent improper payments to
                  Medicare Advantage organizations and prescription drug plan sponsors for
                  the months following the deaths of enrolled beneficiaries. CMS recoups
                  any payments made to Medicare Advantage organizations and prescription
                  drug plan sponsors on the behalf of deceased beneficiaries for such
                  months.
                  For example, if a beneficiary died in April 2011 and CMS received
                  notification of this beneficiary’s death in June 2011, the MARx system
                  will automatically disenroll this beneficiary in June 2011 to prevent future
                  improper payments. Additionally, CMS will recoup the payments made to
                  the Medicare Advantage organization and/or prescription drug plan
                  sponsor for May and June.
                  Related Work
                  Prior studies and audit reports have identified Medicare payments after
                  beneficiaries’ deaths, as well as issues with date-of-death information. In
                  2012, OIG reported that Medicare inappropriately paid $208,311 in 2010
                  for home health services occurring after beneficiaries’ deaths.25 Similarly,
                  OIG found that Medicare paid $20.6 million in 1997 for Part A and B
                  services with service dates after beneficiaries’ deaths.26 Additionally, OIG
                  found that in 2006 and 2007, Medicare paid $8.2 million for Part B claims
                  with service dates after beneficiaries’ deaths,27 $4.4 million on behalf of
                  deceased beneficiaries enrolled in Medicare Advantage plans, 28 and
                  $3.6 million on behalf of deceased beneficiaries enrolled in prescription
                  drug plans.29



                  24
                     HHS OIG, Review of Medicare Parts A and B Services Billed With Dates of Service
                  After Beneficiaries’ Deaths (A-01-09-00519), September 2010. See CMS’s comments. 

                  25
                     HHS OIG, Inappropriate and Questionable Billing by Medicare Home Health

                  Agencies (OEI-04-11-00240), August 2012. 

                  26
                     HHS OIG, Medicare Payments for Services After Date of Death (OEI-03-99-00200), 

                  March 2000. 

                  27
                     HHS OIG, Review of Medicare Parts A and B Services Billed With Dates of Service 

                  After Beneficiaries’ Deaths (A-01-09-00519), September 2010. 

                  28
                     HHS OIG, Review of Medicare Payments to Managed Care Plans on Behalf of

                  Deceased Enrollees (A-07-07-01046), March 2009. 

                  29
                     HHS OIG, Review of Medicare Payments to Prescription Drug Plans on Behalf of

                  Deceased Enrollees (A-05-09-00027), May 2011. 


Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)                 7
                  Other Federal programs have also made payments after beneficiaries’
                  deaths. For example, SSA OIG found that SSA made payments to more
                  than 6,000 beneficiaries for months or years after receiving notification
                  that the beneficiaries were deceased.30 Similarly, RRB OIG found that the
                  postpayment review of Part B claims with service dates after the deaths of
                  Railroad Retirement beneficiaries was inadequate to identify fraud and
                  potential overpayments.31 Additionally, SSA OIG found that the
                  Numident did not include death information for approximately 1.2 million
                  beneficiaries who died between 1980 and 2010.32

                  METHODOLOGY
                  We identified individuals who, according to SSA’s Death Master File, died
                  between January 1, 2009, and December 31, 2011. We then used CMS’s
                  Enrollment Database to determine whether these individuals had been
                  enrolled in Medicare.33
                  We identified Medicare Part A and B claims and Part C and D payments
                  associated with these deceased beneficiaries from 2011.34
                  	 For Part A, we analyzed outpatient, inpatient, home health, hospice,
                     and skilled nursing facility claims from CMS’s National Claims
                     History Part A Standard Analytic Files for 2011. We limited our
                     analysis to Part A claims with reimbursement amounts greater than
                     zero (i.e., paid claims).35
                  	 For Part B, we analyzed claims for physician and nonphysician
                     services and DMEPOS items from CMS’s National Claims History
                     Part B and DMEPOS Files for 2011.36 We analyzed Part B claims


                  30
                     SSA OIG, Payments to Individuals Whose Numident Record Contains a Death Entry
                  (A-06-08-18095), June 2009. 

                  31
                     RRB OIG, Railroad Medicare Services Billed with Dates of Service after the 

                  Beneficiaries’ Dates of Death (Report No. 10-13), September 2010. 

                  32
                     SSA OIG, Title II Deceased Beneficiaries Who Do Not Have Death Information on the
                  Numident (A-09-11-21171), July 2012. Of those deceased beneficiaries whose deaths
                  were not listed on the Numident, 15,506 died in 2009 and 14,724 died in 2010.
                  33
                     We used Social Security numbers to link deceased individuals from SSA’s Death
                  Master File to Medicare beneficiaries in CMS’s Enrollment Database. 

                  34
                     We used the health insurance claim number to link deceased Medicare beneficiaries 

                  from the Enrollment Database to Part A and B claims and to Part C and D payments. 

                  35
                     Medicare reimbursement amounts are the amount of the payment made to a Part A 

                  provider by Medicare only (i.e., does not include any amounts paid by the beneficiary).

                  Because we identified few Part A claims for deceased beneficiaries with reimbursement 

                  amounts of zero—i.e., unpaid claims—we analyzed only paid Part A claims. 

                  36
                     Typically, a Part B provider or supplier bills for a set of services or items on one claim,

                  listing each service or item as a separate line item on that claim. For the purposes of this 

                  report, we refer to line items on claims as “claims.” 


Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)                          8
                       with allowed amounts greater than or equal to zero (i.e., paid and
                       unpaid claims).37, 38
                  	 For Parts C and D, we analyzed monthly payments from the MARx
                     system for 2011.39
                  In this report, we use the term “Medicare payments” to refer to
                  reimbursement amounts from Part A claims, allowed amounts from Part B
                  claims, and monthly Part C and D payments.
                  Confirming Date-of-Death Information
                  We compared the date-of-death information from SSA’s Death Master File
                  and CMS’s Enrollment Database for each beneficiary. For instances in
                  which SSA and CMS listed different dates of death, we used Accurint—a
                  commercial data depository—to confirm whether these beneficiaries were
                  deceased and the dates on which they died.40 When SSA and CMS date-
                  of-death information did not match, we used the date of death listed in
                  Accurint for our analysis.
                  Identifying Medicare Claims and Payments Made on Behalf of
                  Deceased Beneficiaries
                  Part A. We analyzed outpatient, inpatient, home health, skilled nursing
                  facility, and hospice claims data to determine the number of claims with
                  service dates after beneficiaries’ dates of death. We did not consider a
                  claim to be inappropriate if it had a discharge code indicating that the
                  beneficiary died during the stay and the beneficiary’s date of death was
                  1 day prior to the end-service date.41 For Part A claims in which the
                  beneficiaries’ dates of death preceded the service dates, we summed
                  payment amounts to calculate the overall amount that Medicare
                  inappropriately paid for these services.


                  37
                     Medicare-allowed amounts are 100 percent of the payment made to a Part B provider
                  or supplier by both Medicare and the beneficiary. Generally, Medicare pays 80 percent
                  of allowed charges, and the beneficiary is responsible for the remaining 20 percent.
                  38
                     The National Claims History Files do not contain all unpaid claims. For example,
                  claims may have been submitted with service dates after beneficiaries’ deaths that were
                  denied by claims processing contractors and were not processed further.
                  39
                     Includes retroactive adjustments of monthly Part C and D payments through August
                  2012.
                  40
                     Accurint is a LexisNexis data depository that contains more than 20 billion records
                  from more than 10,000 data sources. Accurint’s primary source for dates of death is
                  SSA’s Death Master File. Accurint also contains death information from obituaries and
                  State death records. We matched across beneficiaries’ social security numbers, first and
                  last names, and dates of birth.
                  41
                     On the claim, the discharge status code indicates the beneficiary status at discharge.
                  When a beneficiary dies prior to discharge, one of the following codes is entered:
                  20 (expired), 40 (expired at home), 41 (expired in a medical facility), or 42 (expired,
                  place unknown).

Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)                      9
                  Part B. Because of programmatic differences within Part B, we analyzed
                  claims for physician and nonphysician services and claims for DMEPOS
                  items differently. Specifically:
                  	 We analyzed Part B claims for physician and nonphysician services to
                     determine the number of claims with service dates after beneficiaries’
                     dates of death. We did not consider claims to be inappropriate if they
                     had modifier Q342 or modifier QL,43 were for discharge services 1 day
                     after the beneficiary died,44 were for services on the same day as a
                     discharge service that was 1 day after a beneficiary’s death,45 or were
                     for interpretation of tests up to 10 days after the beneficiary’s death.46
                  	 We analyzed Part B claims for DMEPOS items to determine the
                     number of claims with service dates after beneficiaries’ deaths. To
                     account for the refill and rental requirements of certain DMEPOS
                     items, we did not consider claims to be inappropriate if service dates
                     were within 30 days of a beneficiary’s date of death.47
                  For Part B claims in which the beneficiaries’ dates of death preceded the
                  service dates, we summed payment amounts to calculate the overall
                  amount that Medicare inappropriately paid for these services and items.
                  We also analyzed these Part B claims associated with deceased
                  beneficiaries by procedure codes and modifiers.

                  42
                     CMS, Medicare Benefit Policy Manual, Pub. 100-02, ch. 11, § 80.4. Modifier Q3
                  indicates that expenses for physicians’ services to the kidney donor are to be treated as
                  though the recipient had incurred them. If the recipient dies, donor expenses actually
                  incurred after death of the recipient will be treated as incurred before the death of the
                  recipient.
                  43
                     NHIC, Corp. (J14 A/B MAC), Modifier Billing Guide, June 2011, p. 9. Modifier QL
                  indicates that the patient was pronounced dead after the ambulance was called and that
                  the ambulance base rate should be paid with no mileage adjustment or rural adjustment.
                  44
                     NHIC, Corp., Evaluation and Management Services Billing Guide, March 2011, p. 17.
                  Discharge services are billed using procedure codes 99238 and 99239 for hospital
                  settings and 99315 and 99316 for nursing facility settings. In other settings, a brief
                  evaluation and management service code is used; however, we did not consider
                  evaluation and management service codes to be discharge codes for our analysis. The
                  five character codes and descriptions included in this study are obtained from
                  Current Procedural Terminology (CPT®), copyright 2012 by the American Medical
                  Association (AMA). CPT is developed by the AMA as a listing of descriptive terms
                  and five character identifying codes and modifiers for reporting medical services
                  and procedures. Any use of CPT outside of this study should refer to the most
                  current version of the Current Procedural Terminology available from AMA.
                  Applicable FARS/DFARS apply.
                  45
                     NHIC, Corp., Evaluation and Management Services Billing Guide, March 2011, p. 25.
                  Reasonable and necessary medical services rendered up to and including pronouncement
                  of death by a physician are covered diagnostic and therapeutic services.
                  46
                     Interpretation of tests is allowable after a beneficiary’s death when the physician could
                  not have known that the beneficiary had died. To account for these instances, we
                  searched procedure code descriptions using the phrase “interpretation and report only.”
                  47
                     CMS, Medicare Claims Processing Manual, Pub. 100-04, ch. 20, § 30.5.4.

Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)                         10
                  Parts C and D. We analyzed monthly payments to Medicare Advantage
                  organizations and prescription drug plan sponsors to identify those made
                  after the beneficiaries’ months of death. For Part C and D payments for
                  which the beneficiaries’ months of death preceded the monthly payment,
                  we summed payment amounts to calculate the overall amount that
                  Medicare inappropriately paid on behalf of these deceased beneficiaries.
                  We also analyzed Part C and D payments made on behalf of deceased
                  beneficiaries by Medicare Advantage organization and prescription drug
                  plan sponsor.
                  Identifying deceased beneficiaries with improper payments across
                  Medicare. We identified deceased beneficiaries for whom improper
                  payments were made across Medicare. We identified deceased
                  beneficiaries with Part A and B payments after their deaths. In addition,
                  we identified deceased beneficiaries with Part A and B payments after
                  their deaths that had also Part D payments. We identified deceased
                  beneficiaries for whom both Part C and D payments were made after their
                  months of death.
                  Identifying Providers and Suppliers With High Numbers of Paid
                  and/or Unpaid Part B Claims With Service Dates After
                  Beneficiaries’ Deaths
                  Separately, we analyzed paid and unpaid Part B claims for physician and
                  nonphysician services and DMEPOS items for deceased beneficiaries to
                  identify providers and suppliers that submitted claims with service dates
                  after beneficiaries’ deaths in 2011.48 In total, we identified 245,559 such
                  claims submitted by 39,082 providers and 8,556 suppliers.
                  Ninety-eight percent (239,598) of claims were not paid by Medicare and
                  were submitted by 37,550 providers and 8,543 suppliers. The remaining
                  2 percent (5,961) of these claims were paid by Medicare and were
                  submitted by 2,468 providers and 254 suppliers. About 3 percent (1,177)
                  of providers and suppliers had both paid and unpaid claims with service
                  dates after beneficiaries’ deaths.
                  For each provider, we calculated the total number of paid and unpaid
                  Part B claims with service dates after beneficiaries’ deaths. Similarly, for
                  each supplier, we calculated the total number of paid and unpaid Part B
                  claims with service dates at least 30 days after beneficiaries’ deaths. We
                  also calculated, for each provider and supplier, the total number of
                  deceased beneficiaries associated with paid and unpaid Part B claims.


                  48
                    We did not conduct this analysis on Part A because there were few unpaid claims with
                  service dates after beneficiaries’ deaths and a small number of Part A providers that
                  submitted both paid and unpaid claims. Because of programmatic differences, this
                  analysis could not be applied to Parts C and D.

Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)                   11
                  Providers and suppliers with a high number of paid and/or unpaid Part B
                  claims for deceased beneficiaries raise concerns, especially if their billing
                  for deceased beneficiaries represents a substantial proportion of their
                  overall Medicare billing. To determine how the billing for deceased
                  beneficiaries compared to providers’ and suppliers’ overall Medicare
                  billing, we analyzed all Part B claims submitted in 2011 by providers and
                  suppliers associated with the most paid and/or unpaid claims with service
                  dates after beneficiaries’ deaths.
                  Geographic Analysis
                  For Part A and B claims with service dates after beneficiaries’ deaths, we
                  identified the Core Based Statistical Areas (CBSAs) in which providers or
                  suppliers were located using their business address ZIP Codes.49 We
                  identified CBSAs with the most Part A and B payments made on behalf of
                  deceased beneficiaries.50 We also identified CBSAs with providers and/or
                  suppliers with the most paid or unpaid Part B claims with service dates
                  after beneficiaries’ deaths.
                  Limitations
                  We did not independently verify the accuracy of CMS’s date-of-death
                  information when it matched that in SSA’s Death Master File.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




                  49
                     United States Census Bureau, Metropolitan and Micropolitan, May 2012. Accessed at
                  http://www.census.gov/population/metro/ on December 20, 2012. CBSAs are both
                  metropolitan and micropolitan areas as defined by the Office of Management and Budget.
                  A metropolitan area contains a core urban area of 50,000 or more in population, and a
                  micropolitan area contains an urban core of at least 10,000 (but less than 50,000) in
                  population.
                  50
                     We did not conduct a geographic analysis of Part C and D payments made on behalf of
                  deceased beneficiaries because the geographic coverage of plans offered by Medicare
                  Advantage organizations and prescription drug plan sponsors varies. Some plans are
                  localized on the level of a county or region within a State, whereas other plans can cover
                  multiple States or be nationwide.

Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)                      12
                                 FINDINGS
                                 CMS has safeguards to prevent and recover Medicare
                                 payments made on behalf of deceased beneficiaries;
                                 however, it inappropriately paid $23 million in 2011
                                 after beneficiaries’ deaths
                                 CMS inappropriately paid less than one-tenth of a percent ($23 million) of
                                 total Medicare expenditures in 2011 to providers, suppliers, Medicare
                                 Advantage organizations, and prescription drug plan sponsors on behalf of
                                 beneficiaries who died in 2009, 2010, or 2011. CMS has safeguards to
                                 prevent and recover Medicare payments made on behalf of deceased
                                 beneficiaries. For Parts A and B, CMS implemented a process in April
                                 2011 to prevent improper payments for services and items billed after
                                 beneficiaries’ deaths. For Parts C and D, CMS automatically disenrolls an
                                 individual from a Medicare Advantage plan or prescription drug plan upon
                                 his or her death. These safeguards, however, did not prevent all improper
                                 payments.
                                 Part C accounted for the most improper payments ($20 million) in 2011.
                                 Part A had the highest average payment per deceased beneficiary ($8,468).
                                 Table 2 shows total and average improper payments per deceased
                                 beneficiary by Part of Medicare. Appendix A shows improper payments
                                 made on behalf of deceased beneficiaries by Part of Medicare and year of
                                 beneficiary death from 2009 to 2011.
                                 Table 2: Medicare Payments After Beneficiaries’ Deaths by Part of
                                 Medicare, 2011
                                                                                                                                  Average
                                                                                           Medicare
                                                                                                                 Number of        Medicare
Part of                                                                               Payments After
                Description                                                                                      Deceased      Payment for
Medicare                                                                               Beneficiaries’
                                                                                                              Beneficiaries*     Deceased
                                                                                             Deaths
                                                                                                                                Beneficiary
                Offers the option to enroll in and receive care from
Part C                                                                                     $19,906,805               11,835         $1,682
                private Medicare Advantage plans

Part D          Offers subsidized access to drug insurance coverage                         $1,049,444                5,101            $206

                Helps pay for hospital, home health, skilled nursing
Part A                                                                                      $1,634,280                  193         $8,468
                facility, and hospice care

                Helps pay for physician and nonphysician services,
Part B                                                                                         $592,823               1,541            $385
                including DMEPOS items

   Total                                                                                   $23,183,352               17,403         $1,332
*Column sum exceeds total because some deceased beneficiaries had payments in multiple parts of Medicare.
Source: OIG analysis of Part A and Part B claims data and Part C and D payments from the MARx system, 2013.


                                 Of the 17,403 deceased beneficiaries associated with improper Medicare
                                 payments in 2011, 58 percent (10,025) had less than $1,000 in improper

           Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)                                   13
                  Medicare payments after their deaths. However, 12 deceased beneficiaries
                  had over $50,000 each in improper Medicare payments after their deaths.
                  Of these, Medicare paid over $100,000 each for two beneficiaries that died
                  in 2009 and 2010. These two beneficiaries accounted for $256,689 in
                  improper Part A, B, and D payments in 2011.
                  Medicare Parts C and D accounted for 90 percent of improper
                  payments in 2011 made on behalf of deceased beneficiaries
                  Medicare Parts C and D accounted for $21 million of the $23 million
                  (90 percent) in improper payments after beneficiaries’ deaths in 2011.
                  CMS initially paid $610 million to Medicare Advantage organizations and
                  prescription drug plan sponsors on behalf of deceased beneficiaries.
                  However, it retroactively recovered 97 percent ($589 million) of these
                  payments. At the time of our review, CMS had not recovered the
                  remaining 3 percent ($21 million) inappropriately paid on behalf of 15,838
                  deceased beneficiaries. About 7 percent (1,098) of deceased beneficiaries
                  were associated with both improper Part C and D payments in 2011.
                  Nearly 86 percent ($20 million) of improper Medicare payments made on
                  behalf of deceased beneficiaries were made to 514 Medicare Advantage
                  organizations. Fifteen organizations accounted for 31 percent
                  ($6.2 million) of improper Part C payments after beneficiaries’ deaths in
                  2011. Specifically, Medicare paid $1.1 million to 1 organization on behalf
                  of 592 deceased beneficiaries. This organization received the most
                  improper payments on behalf of the most deceased beneficiaries of all
                  Medicare Advantage organizations in 2011. Nearly all (11,767 of 11,835)
                  deceased beneficiaries who were associated with improper Part C
                  payments in 2011 also died in 2011.
                  Approximately $1 million in improper Medicare payments made on behalf
                  of deceased beneficiaries were made to 398 prescription drug plan
                  sponsors. Twelve sponsors accounted for 70 percent ($735,224) of
                  improper Part D payments after beneficiaries’ deaths in 2011.
                  Specifically, Medicare paid $162,880 to 1 sponsor on behalf of
                  465 deceased beneficiaries and $140,505 to another sponsor on behalf of
                  758 beneficiaries. These two sponsors had the most improper payments
                  on behalf of the most deceased beneficiaries of all prescription drug plans
                  in 2011. Thirty-nine percent of improper Part D payments were made on
                  behalf of beneficiaries who died in 2010.




Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)       14
                  Medicare Parts A and B accounted for 10 percent of improper
                  payments in 2011 made on behalf of deceased beneficiaries
                  Medicare Parts A and B accounted for $2 million of the $23 million
                  (10 percent) in improper payments after beneficiaries’ deaths. CMS
                  inappropriately paid approximately $2.2 million in 2011 for Part A and B
                  claims with service dates after the deaths of 1,626 beneficiaries. About
                  7 percent (108) of these were associated with both Part A and B payments
                  in 2011. Additionally, 26 of the 108 beneficiaries who had both Part A
                  and B payments after their deaths also had Part D payments.
                  Seventy-five percent ($1.7 million) of improper Part A and B payments
                  were made on behalf of beneficiaries who died before the effective date of
                  the informational unsolicited response process, which CMS developed to
                  identify and prevent payment for Part A and B services after beneficiaries’
                  dates of death. However, 25 percent ($560,440) of these improper
                  payments were associated with 378 beneficiaries who died after the
                  effective date of this process.
                  Claims for Part A services had service dates an average of 216 days after
                  beneficiaries’ deaths. For Part B, claims for physician and nonphysician
                  services had service dates an average of 158 days after beneficiaries’
                  deaths, and claims for DMEPOS items had service dates an average of
                  119 days after beneficiaries’ deaths. Certain procedure codes and
                  modifiers were associated with a high number of Part B claims with
                  service dates after beneficiaries’ deaths. For example, 80 percent of
                  DMEPOS items associated with deceased beneficiaries were rental items
                  (e.g., oxygen concentrators, nebulizers, wheelchairs), indicated by
                  modifier RR. Appendix B provides information on these procedure codes
                  and modifiers for Part B claims.
                  In 2011, 10 CBSAs accounted for 50 percent ($1.1 million of $2.2 million)
                  of Part A and B payments for claims with service dates after beneficiaries’
                  deaths. Table 3 shows the improper Medicare payments, the number of
                  deceased beneficiaries, and the number of Part A or B providers and
                  suppliers as broken down by these 10 CBSAs. New York City had the
                  most improper Part A and B payments made on behalf of deceased
                  beneficiaries (nearly $200,000) and the most deceased beneficiaries for
                  whom services were billed (142 of 1,626) in 2011. Overall, Part A and B
                  providers and suppliers billed for deceased beneficiaries in 376 of
                  955 CBSAs.




Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)        15
                  Table 3: Part A and B Payments After Beneficiaries’ Deaths by CBSA, 2011

                                                            Medicare         Number of                           Number of
                                                                                                  Number
                       CBSA                                 Payment          Deceased                            Providers/
                                                                                                 of Claims
                                                             Amount        Beneficiaries                          Suppliers

                       New York City, NY                    $192,476                    142              354               226

                       Indianapolis, IN                     $150,330                      12             287               103

                       Philadelphia, PA                     $140,523                      61             334               135

                       Boston, MA                           $127,430                      47             189                99

                       St. Louis, MO                        $116,408                      14             128                53

                       Providence, RI                       $102,687                      13             189                35

                       Baton Rouge, LA                      $100,563                       8             146                67

                       Chicago, IL                            $69,590                     93             229               123

                       Houston, TX                            $62,978                     42             132                60

                       Jackson, MS                            $58,927                      9              40                19

                          Total                           $1,121,912                   431*           2,028                920
                       Note: The remaining 366 CBSAs accounted for $1.1 million. 

                       *Column sum exceeds total because some deceased beneficiaries were associated with providers/suppliers

                       in different CBSAs. 

                       Source: OIG analysis of Part A and Part B claims data, 2013. 




                  Eleven percent of improper Medicare payments made
                  on behalf of deceased beneficiaries resulted from
                  missing or incorrect dates of death
                  Eighty-eight percent of improper Medicare payments made on behalf of
                  deceased beneficiaries in 2011 were associated with beneficiaries who had
                  matching dates of death in CMS’s Enrollment Database and SSA’s Death
                  Master File. However, 11 percent ($2.6 million of $23 million) of
                  improper payments were attributable to missing or incorrect dates of death
                  in CMS’s Enrollment Database in 2011.51
                  When beneficiaries’ dates of death in CMS’s Enrollment Database and
                  SSA’s Death Master File did not match, we used Accurint to independently
                  confirm whether beneficiaries were deceased and the dates on which they
                  had died. Dates of death in CMS’s Enrollment Database were inaccurate
                  largely because:


                  51
                    The remaining 1 percent of improper Medicare payments were associated with
                  deceased beneficiaries who had default dates of death in CMS’s Enrollment Database but
                  who had Medicare payments after their dates of death as listed in Accurint.

Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)                                             16
                       1.	 no date of death was listed for a deceased beneficiary, or
                       2.	 the date of death was incorrect; however, CMS considered it
                           verified (i.e., CMS’s Enrollment Database contained a specific day
                           of death instead of a default date of death).
                  CMS did not have dates of death for 375 deceased
                  beneficiaries, resulting in $2.5 million in improper Medicare
                  payments
                  Of the 17,403 deceased beneficiaries associated with improper Medicare
                  payments after their deaths, CMS did not have dates of death for
                  375 beneficiaries who died before or during 2011. As a result, CMS made
                  $2.5 million in improper payments. For almost all (374 of 375) of these
                  deceased beneficiaries, the SSA Death Master File contained the correct
                  dates of death. However, no dates of death were in CMS’s Enrollment
                  Database.
                  Conversely, CMS’s Enrollment Database correctly did not list dates of
                  death for 401 living beneficiaries even though they had dates of death in
                  SSA’s Death Master File. For 88 of the 401 beneficiaries, the incorrect
                  dates of death listed in SSA’s Death Master File were those of spouses or
                  relatives. Additionally, 17 beneficiaries died in 2012 but were incorrectly
                  listed in SSA’s Death Master File as having died between 2009 and 2011.
                  CMS had incorrect dates of death for 105 deceased
                  beneficiaries, resulting in $84,500 in improper Medicare
                  payments
                  For 105 deceased beneficiaries, CMS inappropriately paid $84,519 in
                  2011 because the verified dates of death were incorrect. When CMS
                  receives a report of a specific day of death, it considers the date of death
                  entered into CMS’s Enrollment Database to be verified. For 99 percent
                  (104 of 105) of these beneficiaries with incorrect dates of death in the
                  Enrollment Database, SSA’s Death Master File contained the correct dates
                  of death.
                  On average, incorrect verified dates of death in CMS’s Enrollment
                  Database were incorrect by 105 days. Seventeen percent (18 of 105) of
                  incorrect verified dates of death were incorrect by exactly 1 year
                  (365 days). Nearly 29 percent (30 of 105) of incorrect verified dates of
                  death were incorrect by 1 month (30 or 31 days), and 7 percent (7 of 105)
                  were incorrect by 1 day.




Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)         17
                  In 2011, 251 providers and suppliers had high
                  numbers of paid and/or unpaid Part B claims with
                  service dates after Medicare beneficiaries’ deaths
                  Most providers and suppliers with Part B claims with service dates after
                  beneficiaries’ deaths had 1 paid or unpaid claim in 2011; however,
                  251 providers and suppliers had a high number of paid claims and/or
                  unpaid claims with service dates after beneficiaries’ dates of death.
                  Four providers had high numbers of both paid and unpaid Part B claims
                  with service dates after beneficiaries’ deaths. Even though most Part B
                  claims with service dates after beneficiaries’ deaths—in particular those
                  for DMEPOS items—were not paid by Medicare, providers and suppliers
                  with high numbers of unpaid claims may be attempting to obtain payment
                  for services that were not provided. Providers and suppliers with high
                  numbers of paid and/or unpaid Part B claims with service dates after
                  beneficiaries’ dates of death may indicate fraud, waste, or abuse.
                  Sixty-five providers and suppliers had 10 or more paid Part B
                  claims with service dates after beneficiaries’ deaths in 2011
                  Of the 2,722 providers and suppliers associated with paid claims with
                  service dates after beneficiaries’ deaths, 61 providers and 4 suppliers had
                  10 or more of these claims in 2011. Medicare inappropriately paid these
                  providers and suppliers $101,068. Fourteen of these 65 providers and
                  suppliers were located in Los Angeles, Philadelphia, or Springfield
                  (Illinois). Six providers had over 50 paid Part B claims associated with
                  deceased beneficiaries; 1 provider had 116 paid claims with service dates
                  after beneficiaries’ dates of death. Medicare inappropriately paid this
                  provider $5,224 in 2011 for Part B services provided to deceased
                  beneficiaries. Ninety-eight percent (2,657) of providers and suppliers with
                  paid claims with service dates after beneficiaries’ deaths had fewer than
                  10 such claims; most had 1 paid claim with a service date after the
                  beneficiary’s date of death.
                  In 2011, 190 providers and suppliers had over 100 unpaid
                  Part B claims with service dates after beneficiaries’ deaths
                  Of the 46,093 providers and suppliers associated with unpaid claims for
                  deceased beneficiaries in 2011, 190 had over 100 unpaid Part B claims
                  with service dates after beneficiaries’ dates of death; 75 percent (143) were
                  suppliers. Of these providers and suppliers, one-fourth (48 of 190) were
                  located in New York City, Los Angeles, or Miami. These CBSAs align




Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)         18
                  with geographic areas where Federal investigators and analysts have
                  historically focused efforts to combat Medicare fraud, waste, and abuse.52
                  Fourteen providers and suppliers had over 500 unpaid Part B claims with
                  service dates after beneficiaries’ deaths; 1 supplier had 2,288 of these
                  unpaid claims. Thirty percent of the claims submitted in 2011 by this
                  supplier were not paid. Additionally, unpaid claims for deceased
                  beneficiaries represented nearly 6 percent of this supplier’s total unpaid
                  claims in 2011. Table 4 shows the number of providers and suppliers by
                  number of unpaid Part B claims with service dates after beneficiaries’
                  deaths.
                  Table 4: Providers and Suppliers by Number of Unpaid Part B Claims With
                  Service Dates After Beneficiaries’ Deaths, 2011
                   Number of Unpaid
                                                                              Number of                   Number of
                   Part B Claims With Service Dates
                                                                               Providers                   Suppliers
                   After Beneficiaries’ Deaths
                   1–100                                                           37,503                        8,400

                   101–200                                                               32                           98

                   201–300                                                                 5                          23

                   301–400                                                                 5                          10

                   401–500                                                                 2                           1

                   501–600                                                                 2                           5

                   601–700                                                                 1                           3

                   701–800                                                                 0                           2

                   2,288*                                                                  0                           1

                       Total                                                       37,550                        8,543
                   *One supplier had over 800 unpaid Part B claims with service dates after beneficiaries’ deaths.

                   Source: OIG analysis of Part B claims data, 2013. 



                  Seventy of these 190 providers and suppliers had over 100 unpaid Part B
                  claims for over 50 deceased beneficiaries. Thirteen suppliers had unpaid
                  Part B claims for over 100 deceased beneficiaries, and 2 of these suppliers
                  had unpaid claims associated with more than 400 deceased beneficiaries.
                  For one of these two suppliers, 7 percent of the beneficiaries for whom it
                  had unpaid claims were deceased. Nearly 4 percent of total beneficiaries
                  for whom the same supplier had paid or unpaid claims in 2011 were
                  deceased.

                  52
                     Two of these three CBSAs—Los Angeles and Miami—are among the nine cities
                  targeted by the Medicare Strike Force. The third CBSA—New York City—includes
                  Brooklyn, another city where the Strike Force operates. The Strike Force is part of
                  HEAT (the Health Care Fraud Prevention and Enforcement Action Team), a joint effort
                  of HHS and the Department of Justice, to prevent, deter, and aggressively prosecute
                  health care fraud.

Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)                                       19
                  CONCLUSION AND RECOMMENDATIONS
                  Prior OIG studies and audit reports have identified improper Medicare
                  payments after beneficiaries’ deaths. Consequently, CMS implemented
                  safeguards to address this vulnerability. These safeguards appear to have
                  prevented or recovered most Medicare payments made on behalf of
                  deceased beneficiaries; however, they did not prevent all improper
                  payments. In this review, we found that CMS inappropriately paid
                  $23 million (less than one-tenth of a percent of total Medicare
                  expenditures) in 2011 after beneficiaries’ deaths. Part C accounted for
                  86 percent of these improper payments. Additionally, 11 percent of the
                  $23 million in improper payments made on behalf of deceased
                  beneficiaries resulted from missing and incorrect dates of death.
                  Health care fraud schemes have involved providers or suppliers submitting
                  fraudulent claims to Medicare, including claims for deceased
                  beneficiaries. We identified 251 providers and suppliers that had high
                  numbers of paid and/or unpaid Part B claims with service dates after
                  beneficiaries’ deaths. These providers and suppliers—in particular, those
                  with a high number of unpaid Part B claims—were located primarily in
                  geographic areas historically known for health care fraud. Although most
                  claims with service dates after beneficiaries’ deaths submitted by these
                  providers and suppliers were not paid by Medicare, these providers and
                  suppliers may be attempting to obtain payment for services that were not
                  provided and warrant further scrutiny.
                  We recommend that CMS:
                  Improve Existing Safeguards To Prevent Future Improper
                  Medicare Payments After Beneficiaries’ Deaths
                  CMS should determine why its existing safeguards did not prevent all
                  improper payments made on behalf of deceased beneficiaries with dates of
                  death in its Enrollment Database. Although CMS has made progress in
                  preventing and recovering improper Medicare payments associated with
                  deceased beneficiaries through the “informational unsolicited response
                  process” in Parts A and B and through automatic disenrollment in Parts C
                  and D, it made approximately $23 million in improper payments in 2011
                  after beneficiaries’ deaths. Eighty-eight percent of these improper
                  payments were associated with beneficiaries who had matching dates of
                  death in CMS’s Enrollment Database and SSA’s Death Master File. CMS
                  should address any issues it identifies and improve existing safeguards to
                  prevent future improper Medicare payments after beneficiaries’ deaths.




Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)          20
                  Take Appropriate Action on Improper Medicare Payments
                  Made on Behalf of Deceased Beneficiaries and Correct
                  Inaccurate Dates of Death
                  In a separate memorandum, we will refer to CMS for appropriate action
                  information associated with the approximately $23 million in improper
                  Medicare payments made on behalf of deceased beneficiaries identified in
                  this report. CMS should recover these improper payments, as appropriate.
                  Additionally, we will refer to CMS information on the 480 deceased
                  beneficiaries with missing or incorrect dates of death identified in this
                  report. CMS should correct these inaccurate dates in its Enrollment
                  Database. To fully prevent improper Medicare payments after
                  beneficiaries’ deaths, CMS must have accurate beneficiary dates of death
                  in its systems. CMS should also determine why dates of death were
                  inaccurate for these deceased beneficiaries and resolve the issue.
                  Monitor Both Paid and Unpaid Part B Claims With Service
                  Dates After Beneficiaries’ Deaths
                  CMS should monitor both paid and unpaid Part B claims with service
                  dates after Medicare beneficiaries’ deaths to identify providers and
                  suppliers associated with high numbers of such claims. These providers
                  and suppliers may be attempting to obtain payment for services that were
                  not provided. CMS could incorporate this analysis into its predictive
                  analytic work and develop thresholds to identify providers and suppliers
                  for further review. For providers and suppliers that exceed these
                  thresholds, CMS could initiate prepayment review of providers’ or
                  suppliers’ claims and/or conduct site visits to ensure the legitimacy of
                  these providers or suppliers.
                  Take Appropriate Action on Providers and Suppliers That Had
                  High Numbers of Paid and/or Unpaid Part B Claims With
                  Service Dates After Beneficiaries’ Deaths
                  In the aforementioned memorandum, we will also refer to CMS for
                  appropriate action the 251 providers and suppliers we identified that had
                  10 or more paid Part B claims and/or over 100 unpaid Part B claims with
                  service dates after Medicare beneficiaries’ deaths. Appropriate action may
                  include: determining whether these providers and suppliers should be
                  placed on prepayment review, conducting site visits, and/or referring them
                  to benefit integrity contractors for further examination.




Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)         21
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with all four of our recommendations. CMS is committed
                  to preventing and recovering Medicare payments made on behalf of
                  deceased beneficiaries. For this reason, CMS has implemented safeguards
                  to address this vulnerability and will improve its existing safeguards to
                  prevent further Medicare payments after a beneficiary’s death.
                  With regard to our first recommendation, CMS concurred in principle and
                  stated that it needs to analyze the details on the improper payments to
                  determine whether there is an issue with the data and what aspects of its
                  systems need to be modified. We will send this information, as well as
                  information regarding inaccurate dates of death, under separate cover.
                  With regard to our second recommendation, upon receiving information
                  on improper payments identified in this report, CMS will analyze each
                  case to determine whether it can pursue recovery consistent with agency
                  policies and procedures. CMS will review the inaccurate dates of death
                  identified in this report and work with SSA to make corrections, should
                  they be required.
                  With regard to our third recommendation, CMS is conducting analyses to
                  determine whether it is feasible to build a model identifying providers
                  submitting claims with dates of service that occurred after beneficiaries’
                  deaths. If this model is viable, CMS anticipates launching it into the
                  Fraud Prevention System in the spring of 2014.
                  With regard to our fourth recommendation, CMS will take appropriate
                  action upon receiving information regarding providers and suppliers
                  described in this report. Appropriate action may include conducting site
                  visits, revalidations, or additional investigations, if warranted.
                  Finally, CMS noted that it provided us with feedback on our use of SSA’s
                  Death Master File in its comments on a preliminary version of this report,
                  stating that its accuracy is not guaranteed. CMS further noted that the
                  only official record of death information is SSA’s Master Beneficiary
                  Record, which sends information daily to the Enrollment Database. In
                  response to these preliminary comments, we clarified the difference
                  between the Death Master File and the Master Beneficiary Record in the
                  background of this report and indicated in the report that CMS receives its
                  death information from the Master Beneficiary Record. We did not
                  recollect or reanalyze data to compare SSA’s Death Master File to its
                  Master Beneficiary Record.



Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)           22
                  We support CMS’s efforts to address these issues and encourage continued
                  progress. For the full text of CMS’s comments, see Appendix C.




Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)    23
                   APPENDIX A
                   Medicare Payments Made on Behalf of Deceased Beneficiaries
                   by Year of Beneficiary Death


                   Table A-1. Part A Payments for Services After Beneficiaries’ Deaths, 2011

              Type of                Year of                                                                           Number of
                                                               Medicare           Number          Number of
              Part A              Beneficiary                                                                          Deceased
                                                              Payments           of Claims         Providers
              Service                 Death                                                                          Beneficiaries


                                           2009                  $45,936                   76                 13                     6
                                           2010                  $16,154                   65                 31                   22
              Outpatient
                                           2011                  $46,012                 158                105                    92
                                    Total                     $108,116*                 300*               141†                  121*

                                           2009                $125,693                    12                  4                     3
                                           2010                $212,513                    17                 12                     9
              Inpatient
                                           2011                $939,011                    70                 67                   58
                                                                                                                †
                                    Total                 $1,277,216**                     99                79                    70

                                           2009                         $0                  0                  0                     0
              Home                         2010                   $8,694                    5                  5                     5
              Health                       2011                  $26,395                   16                 15                   15
                                    Total                        $35,089                   21                 20                   20

                                           2009                         $0                  0                  0                     0
              Skilled                      2010                  $76,815                   11                  6                     6
              Nursing
              Facility                     2011                  $66,268                   13                  8                     8
                                    Total                      $143,083                    24                 14                   14

                                           2009                         $0                  0                  0                     0
                                           2010                  $14,773                    8                  3                     3
              Hospice
                                           2011                  $56,001                   32                 29                   29
                                    Total                        $70,774                   40                 32                   32

                  Grand Total                             $1,634,280**                   484               254†                  193†
              * According to Accurint, the date of death for one beneficiary was in 2002. This beneficiary and the payments associated

              with him or her are included in the totals. 

              ** Column sum does not equal total because of rounding. 

              †
                Column sum exceeds total because some providers and beneficiaries had multiple types of Part A services. 

              Source: Office of Inspector General (OIG) analysis of Part A claims data, 2013. 





Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)                                                24
                     APPENDIX A (CONTINUED)

                     Table A-2. Part B Payments for Services and Items After Beneficiaries’
                     Deaths, 2011

                                        Year of                                                       Number of             Number of
  Type of                                                        Medicare          Number of
                                     Beneficiary                                                      Providers/            Deceased
  Part B Service                                                Payments             Claims
                                         Death                                                         Suppliers          Beneficiaries


                                               2009                $59,834                  610                 162                   11
  Physician and                                2010                $77,200                1,242                 320                   66
  Nonphysician
  Services                                     2011               $411,139                3,535              2,065                 1,219
                                        Total                    $548,368*               5,390*             2,468†                 1,297*

                                               2009                  $1,044                   19                   4                   4
  Durable Medical                              2010                $26,637                  324                 141                  131
  Equipment, Prosthetics,
  Orthotics, and Supplies                      2011                $16,773                  228                 130                  123
                                                                                                                    †
                                        Total                      $44,454                  571                254                   258

      Grand Total                                                 $592,823                5,961              2,722                 1,541†
  *According to Accurint, the date of death for one beneficiary was in 2002. This beneficiary and the payments associated with him or her
  are included in the totals.
  †
    Column sum exceeds total because some beneficiaries had multiple types of Part B services.
  Source: OIG analysis of Part B claims data, 2013.


                     Table A-3. Part C and D Payments on Behalf of Deceased Beneficiaries,
                     2011

                                               Year of                                                         Number of
                      Part of                                           Medicare          Number of
                                            Beneficiary                                                        Deceased
                      Medicare                                         Payments           Contracts*
                                                Death                                                        Beneficiaries


                                                     2009                 $62,338                     12                     13
                                                     2010               $753,379                      47                     55
                      Part C
                                                     2011           $19,091,087                     514                  11,767
                                               Total              $19,906,805**                    514†                  11,835

                                                     2009                 $79,742                     27                     67
                                                     2010               $403,424                      64                    172
                      Part D
                                                     2011               $564,632                    393                   4,861
                                                                                                        †
                                               Total              $1,049,444***                    398                  5,101***

                                                                                                        †
                          Grand Total                               $20,956,249                    576                  15,838†
                      * For Part C, the term “contracts” refers to Medicare Advantage organizations. For Part D, the term

                      “contracts” refers to prescription drug plan sponsors. 

                      ** Column sum does not equal total because of rounding. 

                      *** According to Accurint, the date of death for one beneficiary was in 2002. This beneficiary and the 

                      payments associated with him or her are included in the totals. 

                      †
                        Column sum exceeds total because some contracts and beneficiaries had both Part C and D

                      payments. 

                      Source: OIG analysis of Part C and D payments from the MARx system, 2013. 





Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)                                                   25
                   APPENDIX B
                   Procedure Codes and Modifiers on Medicare Part B Claims With Service Dates After Beneficiaries’
                   Deaths
                   Table B-1. Procedure Codes on Part B Claims for Physician and Nonphysician Services With Service Dates After
                   Beneficiaries’ Deaths, 2011
                                                                                                                   Number of                                 Average Day Count
           Procedure                                                                                 Number of                         Number of
                                                                                Description                        Deceased                               Between Date of Death
           Code                                                                                        Claims                           Providers
                                                                                                                 Beneficiaries                                 and Service Date
           99232*                                  Subsequent hospital care/day 25 minutes                587                  246              372                         59

           99233                                   Subsequent hospital care/day 35 minutes                354                  178              241                         37

           71010                           Radiologic examination, chest; single view, frontal            340                  135              235                         85

           99291                                  Critical care ill/injured patient init 30-74 min        236                  120              160                         37

           99231                                   Subsequent hospital care/day 15 minutes                151                   99              116                         19

           A0425                                             Ground mileage, per statute mile             129                   82                88                        114

           99223                                           Initial hospital care/day 70 minutes           120                   85              115                         84

           36415                                  Collection of venous blood by venipuncture              117                   47                49                        345

           93010                                                      Electrocardiogram report            114                   30                63                        403
                                                                                                                                  †
               Total                                                                                     2,148               651             1,273†                          --
           Note: The remaining 566 procedure codes on deceased beneficiaries’ Part B claims for physician and nonphysician services were each on fewer than 100 claims. 

           *The five character codes and descriptions included in this study are obtained from Current Procedural Terminology (CPT®), 

           copyright 2012 by the American Medical Association (AMA). CPT is developed by the AMA as a listing of descriptive terms and

           five character identifying codes and modifiers for reporting medical services and procedures. Any use of CPT outside of this

           study should refer to the most current version of the Current Procedural Terminology available from AMA. Applicable

           FARS/DFARS apply.

           †
            Column sum exceeds total because some providers and beneficiaries were associated with multiple procedure codes.
           Source: Office of Inspector General (OIG) analysis of Part B claims data, 2013.




Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)                                                  26
                  APPENDIX B (CONTINUED)

                  Table B-2. Modifiers on Part B Claims for Physician and Nonphysician Services With Service Dates After Beneficiaries’
                  Deaths, 2011
                                                                                                                                         Number of
                                                                                                                  Number of                                      Number of
                 Modifier                                                                   Description                                  Deceased
                                                                                                                    Claims                                        Providers
                                                                                                                                       Beneficiaries

                 26                                                                Professional component                   834                     252                     531

                 GC                                                     Resident/teaching physician service                 146                       57                     97
                                   Significant, separately identifiable evaluation and management service by
                 25                   the same physician on the same day of the procedure or other service                  134                       74                     95

                 59                                                              Distinct procedural service                134                       50                     58

                 GP                     Services delivered under an outpatient physical therapy plan of care                116                        4                      4
                                                                                                                               †
                      Total                                                                                             1,296                      319†                     709†
                 Note: The remaining 65 modifiers on deceased beneficiaries’ Part B claims for physician and nonphysician services were each listed fewer than 100 times.
                 †
                   Column sum exceeds total because some providers, beneficiaries, and claims were associated with multiple modifiers.
                 Source: OIG analysis of Part B claims data, 2013.




Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)                                                   27
                   APPENDIX B (CONTINUED)

                   Table B-3. Procedure Codes on Part B Claims for Durable Medical Equipment, Prosthetics, Orthotics, and Supplies With
                   Service Dates At Least 30 Days After Beneficiaries’ Deaths, 2011

                                                                                                                   Number of                                 Average Day Count
           Procedure                                                                                Number of                           Number of
                                                                                Description                        Deceased                               Between Date of Death
           Code                                                                                       Claims                             Suppliers
                                                                                                                 Beneficiaries                                 and Service Date

           E0570                                                    Nebulizer, with compressor             84                   67                 65                                   73
                               Oxygen concentrator, single delivery port, capable of delivering
           E1390                 85 percent or greater oxygen concentration at the prescribed              78                   51                 50                               120
                                                                                      flow rate

           K0001                                                           Standard wheelchair             54                   39                 37                                   60

                                  Hospital bed, semi-electric (head and foot adjustments), with
           E0260                                               any type side rails, with mattress          45                   29                 28                                   97
                                    Portable gaseous oxygen system, rental; includes portable
           E0431              container, regulator, flowmeter, humidifier, cannula or mask, and            37                   21                 21                               132
                                                                                         tubing
                                Elevating leg rests, pair (for use with capped rental wheelchair
           K0195                                                                          base)            34                   20                 20                                   74

           K0003                                                         Lightweight wheelchair            24                   15                 15                                   65

           K0004                                          High strength, lightweight wheelchair            23                   13                 13                                   97

                                   Blood glucose test or reagent strips for home blood glucose
           A4253                                                           monitor, per 50 strips          22                    9                   8                              330

           A4259                                                        Lancets, per box of 100            21                    8                   7                              320
                                                                                                                                  †
              Total                                                                                       422                209                 206†                                   --
           Note: The remaining 52 procedure codes on deceased beneficiaries’ Part B claims for durable medical equipment, prosthetics, orthotics, and suppliers (DMEPOS) were each on
           fewer than 20 claims.
           †
             Column sum exceeds total because some suppliers and beneficiaries were associated with multiple procedure codes.
           Source: OIG analysis of Part B claims data, 2013.




Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)                                                  28
                  APPENDIX B (CONTINUED)

                  Table B-4. Modifiers on Part B Claims for DMEPOS Items With Service Dates At Least 30 Days After Beneficiaries’
                  Deaths, 2011
                                                                                                                                        Number of
                                                                                                                 Number of                                 Number of
                   Modifier                                                                 Description                                 Deceased
                                                                                                                   Claims                                   Suppliers
                                                                                                                                      Beneficiaries

                   RR                                                                                Rental                459                    223            214

                   KX                                                                 Documentation on file                332                    145            140
                                    DMEPOS item, parenteral enteral nutrition (PEN) pump or capped rental,
                   KJ                                                                   4th to 15th months                 295                    156            151
                                      6-month maintenance and servicing fee for reasonable and necessary
                   MS                parts and labor that are not covered under any manufacturer or supplier                31                        26          26
                                                                                                   warranty

                   KI                                           DMEPOS item, second or third month rental                   30                        25          25
                                                                                                                              †
                        Total                                                                                             544                    253†           247†
                   Note: The remaining 17 modifiers on deceased beneficiaries’ Part B claims for DMEPOS items were each listed fewer than 30 times.
                   †
                     Column sum exceeds total because some suppliers, beneficiaries, and claims were associated with multiple modifiers.
                   Source: OIG analysis of Part B claims data, 2013.




Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)                                                 29
                                       APPENDIXC
                                       Agency Comments

      /

     (.,:!{-
          ,..,..VIft,.
                         ,._..

                                    DEPARTMENT OF HEALTH & HUMAN SERVICES                                   Centers for Me<llcare & Me<ltcald SeNioes


                                                                                                             Offic« of the Administrator
                                                                                                            Washington, DC 20201




                                 DATE:           AUG 30 2013

                                 TO:            Daniel R. Levinson
                                                Inspector General
                                                                   /S/
                                 FROM:          Marilyn Tavenner
                                                Administrator

                                 SUBJECT: 	 Office of Inspector General (OIG) Draft Report--"CMS Prevented or Recovered
                                            Most Medicare Payments Made on Behalf of Deceased Beneficiaries in 20 II''
                                            (OEJ-04-12-00 130)


                                 The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                                 comme nt on the above-referenced OIG draft report. The purpose of this report is to identify and
                                 describe Medicare payments made on behalf ofdeceased beneficiaries, determine the accuracy
                                 ofCMS' information on beneficiaries' dates of death, and identify providt.'l'S and suppliers with
                                 paid or unpaid Part B claims with service dates after beneficiaries' deaths.

                                 The CMS is committed to preventing or recovering Medicare payments made on behalf of
                                 deceased beneficiaries. CMS has implemented safeguards to address this vulnerability. For
                                 example. CMS put into place an infomJational unsolicited response process for Parts A and B to
                                 prevent improper payments for services and items billed after a beneficiary's death. This process
                                 reviews all Part A and B claims approved for payment in the claims history and identifies claims
                                 with service dates up to 3 years after the beneficiary's date of death. For Parts C and D. CMS
                                 instituted a system to automatically disenroll an individual from a Medicare Advantage plan or
                                 prescription drug plan upon the beneficiary's death. In 2011, CMS retroactively recovered 99
                                 percent of improper Part C and D payments associated with deceased beneficiaries. CMS is
                                 committed to working to improve its cxi~-t ing safeguards to prevent further Medicare payments
                                 made after a beneficiary· s death.

                                 We appreciate OIG's efforts in working with CMS to ensure that appropriate action is taken to
                                 address Medicare payments made after a beneficiary's death including improving existing
                                 safeguards and monitoring claims with service dates after a beneficiary's death. Our response to
                                 each of the OIG recommendations is as follows.




Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)                                                                    30
                  APPENDIX C (CONTINUED)





                                                                                        




Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)   31
                  APPENDIX C (CONTINUED)





                                                                                        




Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)       32
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Dwayne Grant, Regional
                  Inspector General for Evaluation and Inspections in the Atlanta regional
                  office, and Jaime Durley, Deputy Regional Inspector General.
                  Rachel Bessette served as the lead analyst for this study. Other Office of
                  Evaluation and Inspections staff from the Atlanta regional office who
                  conducted this study include Scott Horning. Central office staff who
                  provided support include Althea Hosein, Scott Manley, and
                  Christine Moritz.




Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011 (OEI-04-12-00130)           33
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
